<html>
<title> - MEMBERS' DAY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






                              MEMBERS' DAY

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 2, 2017

                               __________

                           Serial No. 115-03

                               __________

           Printed for the use of the Committee on the Budget


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                       Available on the Internet:
                       www.gpo.gov/fdsys/browse/
            committee.action?chamber=house&committee=budget
            
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-917                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                 
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                        COMMITTEE ON THE BUDGET

                    DIANE BLACK, Tennessee, Chairman
TODD ROKITA, Indiana, Vice Chairman  JOHN A. YARMUTH, Kentucky,
MARIO DIAZ-BALART, Florida             Ranking Minority Member
TOM COLE, Oklahoma                   BARBARA LEE, California
TOM McCLINTOCK, California           MICHELLE LUJAN GRISHAM, New Mexico
ROB WOODALL, Georgia                 SETH MOULTON, Massachusetts
MARK SANFORD, South Carolina         HAKEEM S. JEFFRIES, New York
STEVE WOMACK, Arkansas               BRIAN HIGGINS, New York
DAVE BRAT, Virginia                  SUZAN K. DelBENE, Washington
GLENN GROTHMAN, Wisconsin            DEBBIE WASSERMAN SCHULTZ, Florida
GARY J. PALMER, Alabama              BRENDAN F. BOYLE, Pennsylvania
BRUCE WESTERMAN, Arkansas            RO KHANNA, California
JAMES B. RENACCI, Ohio               PRAMILA JAYAPAL, Washington
BILL JOHNSON, Ohio                     Vice Ranking Minority Member
JASON SMITH, Missouri                SALUD CARBAJAL, California
JASON LEWIS, Minnesota               SHEILA JACKSON LEE, Texas
JACK BERGMAN, Michigan               JANICE D. SCHAKOWSKY, Illinois
JOHN J. FASO, New York
LLOYD SMUCKER, Pennsylvania
MATT GAETZ, Florida
JODEY C. ARRINGTON, Texas
A. DREW FERGUSON IV, Georgia

                           Professional Staff

                     Richard E. May, Staff Director
                  Ellen Balis, Minority Staff Director
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held in Washington, D.C., March 2, 2017..................     1
Hon. Diane Black, Chairman, Committee on the Budget..............     1
    Prepared statement of........................................     2
Hon. John A. Yarmuth, Ranking Member, Committee on the Budget....     3
    Prepared statement of........................................     4
Hon. Joyce Beatty, a Representative in Congress from the State of 
  Ohio...........................................................     5
    Prepared statement of........................................     7
Hon. Peter J. Visclosky, a Representative in Congress from the 
  State of Indiana...............................................    11
    Prepared statement of........................................    12
Hon. Vicky Hartzler, a Representative in Congress from the State 
  of Missouri....................................................    15
    Prepared statement of........................................    17
Hon. Bill Posey, a Representative in Congress from the State of 
  Florida........................................................    20
    Prepared statement of........................................    22
Hon. Jim McGovern, a Representative in Congress from the State of 
  Massachusetts..................................................    26
    Prepared statement of........................................    28
Hon. David N. Cicilline, a Representative in Congress from the 
  State of Rhode Island..........................................    31
    Prepared statement of........................................    34
Hon. Mark Walker, a Representative in Congress from the State of 
  North Carolina.................................................    39
    Prepared statement of........................................    41
Hon. Joe Wilson, a Representative in Congress from the State of 
  South Carolina.................................................    44
    Prepared statement of........................................    46
Hon. Trent Franks, a Representative in Congress from the State of 
  Arizona........................................................    49
    Prepared statement of........................................    51
Statements submitted for the record..............................    55
Hon. Daniel T. Kildee, a Representative in Congress from the 
  State of Michigan, prepared statement of.......................    55
Hon. Gerald E. Connolly, a Representative in Congress from the 
  State of Virginia, prepared statement of.......................    56
Hon. Ken Calvert, a Representative in Congress from the State of 
  California, prepared statement of..............................    57
Hon. Michael K. Simpson, a Representative in Congress from the 
  State of Idaho, prepared statement of..........................    58
Hon. Michael R. Turner, a Representative in Congress from the 
  State of Ohio, prepared statement of...........................    59

 
                              MEMBERS' DAY

                              ----------                              


                        THURSDAY, MARCH 2, 2017

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m. in Room 
1334, Longworth House Office Building, Hon. Diane Black 
[chairman of the committee] presiding.
    Present: Representatives Black, Arrington, Yarmuth, 
Jayapal, DelBene, and Jackson Lee.
    Chairman Black. This hearing will come to order. And good 
morning and welcome to the Budget Committee Members' Day 
hearing.
    Before we begin, it looks like we are going to be scheduled 
to have votes before 10:30, maybe within the next 10 minutes or 
so. So I ask for unanimous consent that, consistent with clause 
4 of House rule XVI, the chair will be authorized to declare a 
recess at any time.
    Without objection, the request is agreed to.
    We hold these Member Day hearings to hear firsthand from 
our colleagues about their ideas for the Federal budget, and we 
welcome those who come to the committee. This hearing is 
required by section 301(e)(1) of the Congressional Budget Act, 
and its intent is to provide a forum in which Members can relay 
their priorities for their district, their State, and, indeed, 
for our country. Nevertheless, recommendations on how to place 
the government on a sustainable fiscal path will especially be 
useful.
    This hearing is an important part of building the budget 
that actually addresses our Nation's tremendous challenges. 
Moving forward, a balanced budget will require a strong 
commitment to spending restraint, and promoting more robust 
economic growth will be critical. Because budgeting is 
governing, it is important that every Member has the 
opportunity to participate in the conversation and be part of 
the process. We welcome the unique, diverse perspectives from 
Members on both sides of the aisle, and we look forward to 
receiving their testimony.
    Before we begin, I am pleased to yield to the ranking 
member of Kentucky, Mr. Yarmuth, for his opening statements.
    [The prepared statement of Diane Black follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Mr. Yarmuth. Thank you, Chairman Black.
    I am pleased to join you in welcoming our witnesses for 
Members' Day.
    As we all know, budgets are much more than numbers on a 
page. They reflect our values as a Nation. So this is a great 
opportunity for Members to talk about their priorities for the 
country and their constituents. As we move into budget season, 
I am deeply concerned about Republican plans for the budget.
    Just this week, we learned that the President will propose 
increasing defense spending by $54 billion and cutting 
nondefense investments by the same amount to pay for it. 
Nondefense investments are already near their lowest levels 
relative to the economy than at any time since at least the 
Eisenhower administration. We can't meet our responsibilities 
to the people we are elected to serve or grow our economy with 
massive cut after massive cut to investment after investment.
    We are talking about potentially devastating cuts to 
education, infrastructure, job training, community safety, 
clean water, clean air, safe food, safe medicines, a safe 
workplace, medical research on everything from Alzheimer's to 
Zika and much more.
    The American people need more from us. They deserve more 
from us. They deserve a government that builds on the economic 
progress made over the past 8 years of the Obama 
administration, that makes investments to create new 
opportunities for their families and for our Nation.
    We all know the Republican leadership can pass a budget 
without bipartisan support, but bipartisanship will be required 
to fund discretionary programs during the appropriations 
process. So we, as a committee, can help craft that compromise 
with a budget that reflects this reality, or we can abdicate 
our responsibilities and pass a budget that does not.
    I urge my colleagues on both sides of the aisle to keep 
this in mind as we begin debating the budget over the next few 
weeks. I look forward to hearing what our colleagues have to 
add to this conversation with their testimony today.
    So thank you, and I yield back.
    [The prepared statement of John Yarmuth follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Black. Thank you, Mr. Yarmuth.
    And as a reminder, Members will have 5 minutes to give 
their oral testimony, and their written statements will be 
submitted for the record.
    Additionally, members of the committee, which would be you 
and I at this point in time, will be permitted to question the 
witness following their statements. And I ask that you please 
keep your comments brief to expedite today's proceedings.
    I would now like to recognize our first witness, the 
gentlelady from Ohio, Ms. Joyce Beatty.
    Thank you for taking your time to share your views with the 
Budget Committee. The committee has received your written 
statement, and it will be part of the formal hearing record. 
You have 5 minutes to deliver your remarks, and you may now 
begin.

    STATEMENT OF THE HON. JOYCE BEATTY, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mrs. Beatty. First of all, let me say thank you, Chairman 
Black and to Ranking Member Yarmuth. I appreciate the 
opportunity to appear before the Budget Committee today.
    Certainly, as you know, the Federal budget is a blueprint 
for our Nation, and it is a statement of our national 
priorities.
    Unfortunately, President Trump's proposal to increase 
defense spending by $54 billion while decreasing nondefense 
programs by the same level I believe will hamper our Nation's 
ability to meet the needs of the American people. I implore 
this committee to view such drastic cuts to nondefense 
discretionary spending with extreme caution and urge investment 
in maintaining and increasing healthy living, affordable 
education, and a strong infrastructure so that all Americans, 
not just a select few, have the opportunity to achieve the 
American Dream.
    Let's talk about education. Our budget should reflect a 
serious sustained investment in our Nation's ability to compete 
in the 21st century. If we want to position ourselves to propel 
our Nation forward, we must recognize the importance of 
education in our workforce's ability to compete in an ever-
growing, ever-changing economy.
    Providing children with access to high-quality early 
childhood development is a cornerstone of human development and 
puts them on an early path to success and at the same time 
dismantles the too-often-traveled school-to-prison pipeline in 
communities of color.
    Moreover, the door to higher education should not be 
slammed simply because of skyrocketing tuition costs. We must 
make greater progress toward improving costs for higher 
education. We must robustly invest in education in order to 
create an economy that works for everyone, not just those at 
the top. We must maintain and continue Pell grants, the TRIO 
programs, to make higher education affordable and accessible to 
students.
    Affordable housing. Serving on the Financial Services 
Committee's Subcommittee of Housing and Insurance and as a 
lifelong leader in developing affordable housing solutions in 
Ohio, I believe it is critically important for our budget 
resolution to include allocations that sustain current rental 
assistance for low-income families and fully restore the number 
of housing choice vouchers that have been arbitrarily cut under 
sequestration. This would help curb homelessness, the 
homelessness epidemic in our country, especially in our 
veterans communities, and to assist more than the 11 million 
people who pay more than 50 percent of their income on rent. 
Safe, affordable housing, Section 8 voucher programs, 
opportunities for home ownership, support for community 
development are priorities that I believe our Nation would be 
proud to see in the fiscal year 2018 budget resolution.
    Lastly, infrastructure. According to the American Society 
of Civil Engineers, the United States has a significant backlog 
of overdue maintenance across our infrastructure systems and 
pressing need for modernization. However, we also have an 
opportunity in this budget resolution to improve the current 
conditions of our Nation's infrastructure in a smart way.
    As we look to rebuild our crumbling bridges, roads, dams, 
we should consider implementing policies that allow technology 
to help our constituents move safely and easily to provide 
access to jobs. In my Ohio Third Congressional District in the 
city of Columbus, we were able to do just that, with 
implementation of the Department of Transportation's Smart City 
Grant. The Central Ohio Transportation Partnership is one of 
the Nation's epicenters for intelligent transportation systems 
to improve safety, enhance mobility, create ladders of 
opportunities for those who have been left behind, and to 
address climate change by reducing greenhouse gas emissions.
    As Members of Congress, let's create a budget resolution 
that creates jobs, economic growth, fosters innovation, 
creativity, and increases the quality of life for working 
families while solving the Nation's most pressing challenges.
    Thank you, Madam Chairwoman, and I yield back.
    [The prepared statement of Joyce Beatty follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    Chairman Black. Perfect. Oh my goodness. We ought to give 
you a big round of applause.
    Thank you, Representative Beatty, for your comments.
    Does any member wish to request time to question Ms. 
Beatty?
    Mr. Yarmuth. Yes, I would.
    Chairman Black. You are recognized.
    Mr. Yarmuth. I appreciate it, Chairman Black.
    It seems to me that when we are talking about the kinds of 
investment you talked about, we are talking about, of course, 
the nondefense discretionary portion of the budget, which the 
administration has proposed cutting by $54 billion. Ultimately, 
that puts more and more pressure on State and local governments 
to pick up the slack if we cut this vital funding.
    How would you describe Ohio's capability of making up the 
difference if we had these kind of draconian cuts in the budget 
here? Would we see Ohio be able to pick up the slack in 
education and housing and some of these other vital programs?
    Mrs. Beatty. Thank you so much, Ranking Member Yarmuth. You 
would see great difficulties for the State of Ohio to do that. 
Ohio is the seventh largest State in this Nation. And just this 
week, we had county commissioners from across the Nation doing 
a fly-in. And in meeting with the county commissioners, who 
provide and oversee many of these services, they came in asking 
us to make sure that we testified so we could educate and make 
members of this committee and members of the administration 
more aware that you can do both.
    I am certainly not against providing funds and equipment 
for those who go fight for us and our country, but I think it 
is equally a disservice to not provide for those who are the 
least of us, to not provide for us to provide safety on the 
roads that we travel. I think that it would be a mistake for us 
to make the drastic cuts to those services. And those are the 
individuals that we represent.
    So part of my being here today was to talk about those 
things that shelter. You know, think about if someone took away 
the shelter over your head where you live in Washington and 
where you live in your districts. Think about those people that 
are waiting in line for their Section 8 voucher that for the 
first time that they are on their road to self-sufficiency, 
that we take that away.
    And, certainly, education is the economic engine of 
economic growth. And on both sides of the aisle, when we are in 
our district, we talk about the same thing. We talk about 
economic development. We talk about having a strong educational 
system and infrastructure. So I am hoping that maybe you give 
me one out of the three, at least, so we can help our 
constituents.
    Thank you for the question. And a short answer to that: no, 
we could not survive.
    Mr. Yarmuth. Thank you very much for your response.
    And I yield back.
    Chairman Black. Thank you, Mr. Yarmuth.
    And thank you again, Mrs. Beatty, for coming to testify.
    Mrs. Beatty. Thank you.
    Chairman Black. Even though votes have been called, we are 
going to try to get you in, Mr. Visclosky. And you are now--if 
you are prepared, you may begin your testimony.

  STATEMENT OF THE HON. PETER VISCLOSKY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Visclosky. Chairwoman, Mr. Yarmuth, members of the 
committee, I appreciate the opportunity----
    Chairman Black. I don't think your microphone is on. Is 
your microphone on?
    Mr. Visclosky. Yes.
    Chairman Black. There you go. Maybe pull it a little 
closer. Thank you.
    Mr. Visclosky. As a member of the House Appropriations 
Committee, I am very aware of the challenges involved in 
developing a budget that balances fiscal responsibility with 
the need to make investments to support a strong economy and 
strengthen our national security. This task was made no less 
difficult by the announcement this week that the President will 
be submitting a budget request that proposes a $54 billion cut 
to domestic programs.
    I am here today on behalf of my constituents of northwest 
Indiana and our Nation to advocate for a fiscal year 2018 
budget that does not allow for significant reductions in 
Federal funding for investments in infrastructure and 
particularly public transit projects. Any such reductions would 
ultimately be counterproductive. According to the American 
Public Transportation Association, in 2014, Americans took 10.8 
billion trips on public transportation, representing a 58-year 
high.
    The perceived value of the benefits is reflected in the 
increased property values near transit stations. A study 
prepared in coordination with the National Realtor Association 
concluded that home values performed 42 percent better on 
average if they were located near public transportation. The 
APTA also estimates that, for every $1 invested in public 
transportation, $4 of economic returns are also generated.
    Recognizing these benefits, my district has adamantly 
supported the expansion and recapitalization of commuter rail 
service from Chicago to northwest Indiana. Investing in what is 
called the South Shore Rail Line will connect my constituents 
to Chicago's $500 billion economy and nearly 4 million jobs. It 
will allow us to begin to draw Chicago's economy to our region. 
Understanding these opportunities, 16 communities in my 
district have come together to dedicate a portion of their 
local economic development tax revenue for an improved rail 
commuter service.
    I would point out that Vice President Pence, in his role as 
Governor of Indiana, signed legislation into law in 2015 
providing State funding to support this endeavor. These non-
Federal dollars will match every Federal dollar provided, 
multiplying the positive effects of the Federal investment 
before we even begin to enumerate the economic development 
benefits. But the successful extension and recapitalization and 
associated economic benefits, along with other projects, not 
only in northwest Indiana but throughout our country, depend 
upon the availability of strong Federal funding to support 
transit projects. I would encourage you to keep this in mind as 
you develop your document.
    [The prepared statement of Peter Visclosky follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Chairman Black. Does any member seek time for questions?
    Thank you, Mr. Visclosky, for coming and testifying before 
the committee.
    We are now going to take a brief recess so that Members can 
go to the floor and vote, but we will reconvene immediately 
after votes. The committee stands in recess.
    [Recess.]
    Mr. Arrington [presiding]. This hearing will come to order. 
We will now continue with our next witness panel.
    I would like to recognize Representative Vicky Hartzler 
from Missouri. Thank you for your time today. The committee has 
received your written statement. It will be a part of the 
formal hearing record. You have 5 minutes. Please leave room 
for questions in that 5 minutes to deliver your oral remarks.
    You may begin, Mrs. Hartzler, when you are ready.

   STATEMENT OF THE HON. VICKY HARTZLER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MISSOURI

    Mrs. Hartzler. Thank you so much, Mr. Chairman, and members 
of the Budget Committee.
    I sit before you today as a fellow Member who sat in those 
chairs just the last two Congresses. Four years ago, I asked 
for a waiver to sit on the Budget Committee in addition to the 
Armed Services and Agriculture Committees because I believe so 
deeply what I am here to share with you today. So thank you for 
allowing me to be here.
    Recent reports have indicated that the Trump administration 
intends to submit a budget with a defense top line of $603 
billion for fiscal year 2018. And while I applaud the 
President's intention to increase our military funding with a, 
quote, ``$54 billion increase,'' this assertion does not tell 
the whole story.
    The $603 billion number is actually only an increase from 
the sequestration levels that have wreaked havoc on our 
military for the past 7 years. It is only a 3-percent increase 
from the President Obama administration's proposal in the 
Future Years Defense Program, or FYDP, and $58 billion less 
than Secretary Gates' budget for what we really need. We need 
more.
    And I did bring some slides too for you to look at. So you 
can see where on here the Trump budget proposal is compared to 
the green line, which was the Gates budget before we had the 
Budget Control Act that had passed. So you can see it is behind 
what was projected to be needed years ago.
    Our military today is facing a severe crisis. We expect our 
men and women in uniform and the equipment they deploy to be 
able to decisively win a current conflict and posture our 
forces so another enemy doesn't even think that they can 
challenge the United States if they tried. Yet this ability is 
in jeopardy. According to the vice chief of staff of the Air 
Force, less than 50 percent of the Air Force's fighter and 
bomber force are able to fight and decisively win a highly 
contested fight against a near peer, such as Russia or China. 
In fact, an engine literally fell off a B-52 bomber while 
training in North Dakota recently. And here is a picture of 
President Eisenhower with a B-52, which is when it was first 
built. So you can see it is a very old aircraft.
    According to the vice chief of staff of the Army, of the 58 
brigade combat teams that our Nation depends on to deploy 
overseas and defend our freedoms we comfortably enjoy here, 
only three could be called upon to fight tonight. Based on 
current readiness levels, the Army can only accomplish defense 
requirements at a high military risk.
    As General Allyn stated in his testimony last month before 
the Armed Services Committee, if we continue down this path, 
the end result, quote, ``is excessive casualties, both to 
innocent civilians and to our forces.'' We cannot allow this to 
happen.
    According to the vice chief of naval operations, two-
thirds, 67 percent, of our Navy's strike fighters, the planes 
that are launching the entirety of the Navy's attacks against 
ISIS, cannot fly--67 percent. And, sadly, in 2015, the Marine 
Corps aviation deaths hit a 5-year high, as aircraft failed or 
pilots lacked adequate training hours. This is unacceptable.
    Regardless of your budgetary priorities, I call on each of 
you to recognize that it is our responsibility in Congress to 
provide support for our men and women in uniform while they 
selflessly serve our Nation.
    House Armed Services Committee Chairman Thornberry and 
Senate Armed Services Committee Chairman McCain have both laid 
out what the Department of Defense needs to begin buying back 
the readiness that has left our force hollow. Our military 
needs $640 billion to begin the restoration of its forces that 
the American people expect and need in today's world. If we do 
not meet the budget of $640 billion for the Department of 
Defense, we will be shortchanging our military in capabilities 
they need to fulfill their mission. We will impose too great a 
risk in air dominance, naval presence, ship recovery, 
facilities maintenance, ground forces, medical readiness, 
nuclear deterrent requirements, national security, space 
defense, ballistic missile defense, and cyber capabilities. 
Each of these requirements is crucial to our national security, 
and it would not be met.
    Our men and women in the military must stand ready to and 
actively fight a resurgent Russia, an emergent China, an 
unstable North Korea, an unpredictable Iran, and widespread 
violent extremism. The demand for our forces has never been so 
high, and our readiness has never been so low. It is within our 
power to reverse this.
    I ask you to work with me and others on the Armed Services 
Committee to give our servicemen and -women the resources they 
need to build our military and keep our Nation safe. Thank you.
    [The prepared statement of Vicky Hartzler follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       
    Mr. Arrington. Thank you, Representative Hartzler.
    I would like to now just move on to the next 5-minute 
presentation. So I appreciate your remarks.
    I want to recognize our next presenter, and that is 
Representative Bill Posey, Bill Posey from Florida.
    Mr. Posey, you have 5 minutes, and any questions would have 
to be reserved in that 5-minute timeframe. Please.

STATEMENT OF THE HON. BILL POSEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Posey. Thank you, Mr. Chairman, and members for the 
opportunity to appear before you today. I thank you for the 
very difficult but important task that this committee does for 
our Nation.
    As you set budget priorities for fiscal year 2018 and 
beyond, I ask for your continued support for our Nation's space 
program. And please know I also support your commitment to 
preserve Social Security and Medicare and to safeguard our 
coastal estuaries. These issues do not just impact my district; 
they touch us all. They are fundamentally a question of 
leadership. Hopefully, the United States will continue to lead 
the world in space and protect our environment for the next 
generation.
    American dominance in space is no longer a given. The 
Russians and the Chinese both have increasing capabilities and 
ambitions in space, and ceding this ultimate military high 
ground to any other Nation is unacceptable.
    In addition to public investments, the immense size and 
power of the American private sector is increasingly emerging 
as the vanguard of U.S. space leadership. We need to continue 
to empower and unleash the awesome potential of the U.S. 
economy with a regulatory framework that will take the 
bureaucratic shackles off our innovative private sector space 
industry partners.
    Public investments in the ever-expanding space economy are 
paid back many times over as new technology and engineering 
breakthroughs are made here on Earth. These technologies and 
capabilities are being created by American companies, employing 
an American high-tech workforce, and driving the American 
economy into the 21st century.
    We are told Social Security Board of Trustees estimates 
that, under current law, Social Security is projected to be 
unable to fulfill paying benefits beginning in 2034. It is 
imperative that we address this looming crisis now so that this 
safety net of earned benefits is available to fulfill the 
promises we have made to our seniors.
    Likewise, we are advised that the Medicare trust fund will 
be completely exhausted and unavailable to seniors within a 
decade. This vital program needs to be safeguarded and 
protected to preserve the quality and availability of health 
services for our seniors, as you know.
    Thank you for understanding we must also be good stewards 
of the ecology and economic well-being of our coastal areas. 
Many estuaries of national significance are in immediate need 
of attention, including the Indian River Lagoon. We are making 
progress in this area, but more needs to be done. Last year's 
bipartisan reauthorization of the National Estuary Program 
implemented a new competitive grant competition to get much-
needed funding to those estuaries with the most urgent needs. 
Hopefully, this new opportunity can be fully funded so its 
benefits can be immediately realized.
    I thank you for your consideration as the committee crafts 
its fiscal year 2018 budget resolution and thank you for your 
time and the opportunity to appear before you today. I would be 
delighted to answer any questions with my remaining time.
    [The prepared statement of Bill Posey follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
      
    Mr. Arrington. Thank you, Mr. Posey.
    We have some time remaining. So I would just ask my 
colleagues if they have any questions.
    No questions.
    We appreciate your time and your remarks.
    Mr. Posey. Thank you.
    Mr. Arrington. So now let's move on to our next witness, 
and that is Representative McGovern.
    I will turn it over to you now for 5 minutes.

    STATEMENT OF THE HON. JIM MCGOVERN, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. McGovern. Thank you, Mr. Chairman. And I will summarize 
my statement here.
    Mr. Chairman, hunger and food insecurity is still a problem 
in the United States of America. Despite the fact that we are 
the richest country in the history of the world, 42.2 million 
Americans lived in food-insecure households, including more 
than 13 million children and 5 million seniors.
    Hunger is a political condition. We can solve this problem 
if we had the political will. Unfortunately, up to this point, 
we haven't demonstrated that. The Supplemental Nutrition 
Program, known as SNAP, is our Nation's best chance to 
alleviate hunger across our country in both urban and rural 
areas. In fact, food insecurity rates among rural households 
are generally higher than urban households. About two-thirds of 
those who receive SNAP are children, seniors, or the disabled. 
Of those who can work, a majority do work, especially families 
with children. And the SNAP benefit is already meager at $1.40 
per person per meal.
    Now, during the 114th Congress, the House Agriculture 
Committee undertook a thorough review of SNAP. Eighteen 
hearings, 60 experts. And what we learned from experts, both 
conservative and liberal, is that SNAP benefits should not be 
cut and that the current benefit is inadequate. We learned that 
SNAP does not discourage work and that case management and job 
training programs can be successful in helping to move people 
out of poverty, but those efforts require a well-funded 
multiyear commitment.
    The bottom line is, we learned that SNAP works. What we did 
not hear from experts, as some have suggested, is the need to 
completely overhaul SNAP. In particular, efforts to convert 
SNAP into a block grant program would be catastrophic. Quite 
simply, block-granting SNAP would wreck our hunger safety net. 
It would result in billions of dollars in cuts, would force 
States to reduce benefits or kick hungry people out of the 
program because of a hard cap on funding. The fact is that 
block grants are simply budget cuts in disguise.
    I would also like to highlight that the most recent 
projections from the Congressional Budget Office estimate that 
the 2014 farm bill will save about $104 billion over 10 years, 
with over $92 billion in projected savings coming from SNAP. 
Now, these savings have been achieved as enrollment in SNAP 
continues to decline from its post-recession peak.
    But let me caution the committee, however, that some of the 
caseload decline is attributable to the return of the 3-month 
time limit in 20 States for nondisabled childless adults who 
are working less than 20 hours a week. This time limit has 
resulted in over a million people losing their benefits in 2016 
alone, including many veterans, by the way. And they are losing 
these benefits, not because they are not hungry, but because of 
the arbitrary time limits.
    Lastly, we have heard a lot about national security here. I 
would argue to this committee that we need to expand the 
definition of national security to mean more than just the 
number of weapons we have in our arsenal. National security 
should mean the quality of life for our citizens. It should 
mean jobs. It should mean shelter, and it should mean access to 
food. And slashing nondefense discretionary funding, I worry 
that the focus will be on programs that benefit the most 
vulnerable. That does not serve our national security.
    In closing, my message to the committee is the same as it 
was last year, and it is simple: Do not balance the budget on 
the backs of America's poor and struggling working families. 
SNAP is a program that works as intended. We shouldn't change 
its entitlement structure. We shouldn't cut it. And we 
shouldn't make it more difficult for our constituents to access 
food assistance when they need it. If we want to strengthen the 
program, we should consider ways, quite frankly, to increase 
the SNAP benefit to an update in its formula. Recent research 
confirms that just a $30 increase in monthly SNAP benefits for 
households leads to healthier eating and lower rates of food 
insecurity. That, I think we can agree, is a worthy goal.
    And, with that, I thank you for the time. And if anyone has 
any questions, I am happy to answer them.
    [The prepared statement of Jim McGovern follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Arrington. Thank you, Representative McGovern.
    And now I am going to defer to our ranking member, Ms. 
Jayapal.
    Ms. Jayapal. Thank you, Mr. Chair.
    And thank you so much for your testimony. Incredibly 
important program that lifts up people across the country.
    I know you had a lot of experts at your committee. You have 
mentioned a couple of things that they said they wanted to 
improve. Can you talk about some of the improvements to the 
program. Multiyear records you say, 3-month time limit, 
increase in the benefit. But do you have others?
    Mr. McGovern. Yes. I mean, some of us have argued about 
increasing the benefit so that people would have the ability to 
make healthier options and not have to rely on food banks as 
much. We have talked about the success of many incentive 
programs that have allowed people with SNAP dollars to go into 
farmers markets or supermarkets and be able to purchase more in 
terms of healthy, nutritious food because of an incentive 
program.
    We talked about, you know, how we manage the individuals' 
cases more comprehensively. So it is not just about how we 
provide people access to food but how we get them counseling 
and job training and kind of the wraparound services that will 
help them kind of transition off the program. It is a great 
idea. The problem is, you know, that requires expanding 
government and expanding programs, which I am not sure this 
Congress has the stomach to do.
    But the bottom line is that there is something wrong when 
there are 42 million people in this country who are hungry and 
food insecure. As a Member of Congress, I am ashamed of that 
fact, and I think it has to become a bigger priority. Nobody in 
this country should go hungry.
    Ms. Jayapal. Thank you, Representative.
    Mr. Arrington. Thank you, Mr. McGovern. We appreciate your 
remarks.
    Let's now move on to our next witness. I want to recognize 
Mr. David Cicilline from Rhode Island.
    Representative Cicilline, you have 5 minutes.

  STATEMENT OF THE HON. DAVID CICILLINE, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF RHODE ISLAND

    Mr. Cicilline. Thank you, Mr. Chairman, and distinguished 
members of the Budget Committee for convening this hearing 
today and for providing me with the opportunity to testify.
    As this committee continues to consider the current 
resolution on the budget for fiscal year 2018, I would like to 
use this time to highlight areas in which robust Federal 
funding will help create jobs and ensure that our Nation's 
workforce is competitive in the 21st century economy.
    But first I want to address reports that President Trump 
plans to cut $10.5 trillion over the next 10 years from the 
Federal budget. These proposed cuts are extremely troubling and 
would likely have devastating effects on the American economy. 
And we have seen the adverse effects of implementing deep cuts 
in hiring freezes on Federal agencies in the past.
    The head of the Government Accountability Office has said 
that, when GAO reviewed the efficacy of past hiring freezes, 
they found that there was little savings or added efficiency 
and that many unintended consequences can arise. The proposed 
draconian cuts to nonmilitary spending are a step in the wrong 
direction. I urge the committee to reject these cuts so that 
the agencies and programs have the necessary and adequate 
funding to continue to serve the American people.
    We have to invest in American jobs and the American people. 
As you know, in July 2014, Congress passed the Workforce 
Innovation and Opportunity Act, which authorized critical 
workforce development programs, such as Job Corps and 
YouthBuild, that provide a combination of educational and 
training services to prepare individuals to enter the workforce 
and help them improve their prospects through job search 
assistance, career counseling, occupational skill training, 
classroom training, and on-the-job training. I hope that the 
committee will recognize that these proven high-impact programs 
deserve to be funded at a level that allows them to expand 
their reach and put more Americans back to work.
    It is also critical that our Federal budget prioritize ways 
to ensure that all children have access to a high-quality 
education. By ensuring that students have access to critical 
education programs at every level, we help ensure that they 
obtain the skills that they need to compete in the 21st century 
economy. In addition to providing students with skills in 
reading and mathematics, we should also ensure that we are 
helping students obtain critical training skills as well as 
social and career-ready skills. This can be accomplished, in 
part, through quality after-school programming. The 21st 
Century Community Learning Centers Program represents a 
dedicated funding stream for these types of afterschool 
programs. 21st Century Community Learning Centers were 
reauthorized under the Every Student Succeeds Act, and they 
help provide valuable skills, while also ensuring that low-
income students have a place to go after school where they 
remain engaged, build stronger relationships with their peers, 
expand on what they have learned during the school day. 
Students who participate in these programs also exhibit fewer 
instances of drug use, violence, and teen pregnancy. These 
centers help promote family stability by giving working 
families the security of knowing that their children are in 
good hands after school ends. This is an issue that has 
bipartisan support. Last year, I was proud to work with my 
colleague, Congressman Lou Barletta, in urging the 
Appropriations Committee to ensure critical funding for the 
21st Century Community Learning Centers.
    We also must ensure that students who want to are able to 
obtain a higher education. However, in the last three decades, 
the cost of higher education has risen by nearly 400 percent, 
resulting in more than a trillion dollars in outstanding 
student loan debt. It is unconscionable that taking on an 
insurmountable amount of debt is often a prerequisite for 
obtaining a college degree. We need to make sure that the cost 
never serves as an impediment to higher education.
    The Federal Pell Grant Program is one program that has 
helped to ensure that cost is not a roadblock to education for 
nearly 45 years. Senator Claiborne Pell from my home state of 
Rhode Island, who led the effort in Congress to expand 
financial aid for at-need college students through the Higher 
Education Act, and his efforts have helped ensure that more 
than 8 million low-income students receive financial aid to pay 
for tuition, books, and room and board each year. For many 
students, Pell grants are the only avenue available for them to 
pay for a college degree. And we need to ensure that this 
avenue remains open and, in fact, open for more young people.
    I thank my colleagues for your ongoing commitment to 
supporting working families and students and look forward to 
continuing to work with you to ensure that these programs that 
continue to deliver results for our constituents will be 
reflected in the budget you will ultimately present to the 
Congress.
    And, with that, I yield.
    [The prepared statement of David Cicilline follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Mr. Arrington. Thank you, Representative Cicilline.
    I will ask my colleagues if they have any questions. 
Please.
    Ms. DelBene. Thank you, Mr. Cicilline. You talked about 
Pell grants, and I know one of the issues that has come up is 
availability year round. Can you speak to the need to make sure 
that is available?
    Mr. Cicilline. Yes. I mean, I think there have been a 
number of proposals to ensure that Pell grants are available 
year round for summer learning but also that they be more 
generous so they can actually begin to meet the current needs 
of the cost of higher education.
    And so I think there is no better investment that we make 
as a country than investing in the education of our young 
people. It is the single best way to ensure future prosperity 
for the individual and for our economy and for our country. And 
I think that whatever this committee can do to make sure that 
that is available year round and in a more robust number will 
come back manyfold to benefit the American people.
    Mr. Arrington. Thank you, Mr. Cicilline, for your remarks 
and your time.
    Mr. Cicilline. Thank you, Mr. Chair.
    Mr. Arrington. Now I would like to introduce our next 
guest, Representative Mark Walker from the great State of North 
Carolina.
    Mr. Walker, 5 minutes.

STATEMENT OF THE HON. MARK WALKER, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. Walker. Thank you, Chairman Arrington and Vice Ranking 
Member Jayapal.
    I appreciate the opportunity to testify today. Recent 
reports from the Congressional Budget Office and the Government 
Accountability Office paint a dismal future. Without changes to 
the Federal budget, we are on a path to fiscal crisis with 
spending, deficits, and debt continuing to balloon out of 
control. I don't believe that we can in good conscience neglect 
the stunning reality and pass on these burdens to our children, 
our grandchildren, and, of course, future generations.
    It is with these realities in mind that the Republican 
Study Committee's Steering Committee adopted the following 
official position on January 24, 2017, of course, of this year: 
The fiscal year 2018 budget resolution must reach balance 
within the 10-year window by reducing the size and scope of 
government and without tax increases and remain in balance 
thereafter in order to save important programs like Social 
Security and Medicare. Further, House Committees should take 
steps to produce legislation to implement a budget within the 
115th Congress.
    I understand that balancing the budget is a significant 
challenge. I think we all do here in Washington. But it is a 
challenge that we as Congress must tackle head-on and without 
reservation. To put it simply, the Federal Government has a 
spending problem that must be addressed. That is not a talking 
point; that is reality.
    According to the CBO's most recent Budget and Economic 
Outlook, annual outlays are projected to top $4 trillion for 
this time for the first time in fiscal year 2018. Over the next 
decade, both spending and revenues will continue increasing 
above their historical norms, with the growth in spending 
outpacing the growth in revenues. This growth in spending will 
drive today's $20 trillion national debt to more than $30 
trillion by fiscal year 2027.
    A budget is more than just a spreadsheet of numbers. It is 
important to understand that the choices we will make in this 
budget and the consequences that follow from it have real, 
tangible effects on the people that we all represent. Trillion 
dollar deficits here in Washington and broken entitlement 
programs mean lower wages, less opportunity, and crippling 
uncertainty for all Americans and especially for those most in 
need of a handout. The Congressional Budget Office says that 
continuing the status quo will reduce economic growth, further 
shrink the labor force, and risk a fiscal crisis that would 
result in fewer jobs and lower wages for the American people.
    Under the current path, the major safety net programs will 
be insolvent, causing indiscriminate cuts to our most 
vulnerable citizens. The Disability Insurance trust fund will 
be depleted in 2023. The Medicare hospital insurance fund will 
be depleted by 2025. And Social Security trust fund will be 
depleted by 2035.
    So we have a choice: we can kick the can down the road yet 
again or act to stave off a pending fiscal crisis and protect 
the American people. That is why we have to act now. Some will 
ignore the writing on the wall and pretend the problem doesn't 
exist. Still others will propose ideas that would exacerbate 
the problem. Instead, we need to act boldly and return to the 
principles of limited government and free markets that made us 
the most prosperous and free people in the history of the 
world.
    The Committee for a Responsible Federal Budget estimates 
that balancing the budget by fiscal year 2027 will require $8.2 
trillion in deficit reduction. Last year, the RSC's proposed 
fiscal year 2017 budget would have reduced spending by $8.6 
trillion over that 10-year budget window while including 
policies that improve fiscal health on both Social Security and 
Medicare. I hope today the Budget Committee will continue to 
look to RSC's budget proposals for policy ideas as you begin 
drafting the fiscal year 2018 budget.
    In closing, the RSC will once again this year produce a 
budget alternative, thanks to our task force led by 
Representative Tom McClintock, a senior member of this 
committee. While the RSC budget will be offered as an amendment 
in the nature of a substitute to the Budget Committee's budget, 
please know that we review it as a complementary, not 
competing, proposal.
    The purpose of the RSC budget is to detail the solutions 
championed by our members with the expectation that the ideas 
first espoused in RSC's budgets will over time be incorporated 
into the House budgets and passed into law. Please know that I 
and the members of the Republican Study Committee stand ready 
to work with you to pass a responsible, balanced budget 
resolution this year.
    Thank you. I yield back.
    [The prepared statement of Mark Walker follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Mr. Arrington. Thank you, Representative Walker.
    We have got some time. Does anybody have any questions?
    I just want to say thank you. I am in agreement. So many 
things, challenges we face as a country. We have got a lot of 
ideas. What our country needs and what our people expect is 
courage. There is no greater opportunity to show that courage 
than in fiscal reform. Thank you for presenting that, Mr. 
Walker.
    And now we are going to go on to our next panelist. And I 
would like to recognize the gentleman from South Carolina, Mr. 
Joe Wilson, for 5 minutes.

STATEMENT OF THE HON. JOE WILSON, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF SOUTH CAROLINA

    Mr. Wilson. Mr. Chairman and committee members, I want to 
thank you for the opportunity to meet with you today.
    First of all, I would like to congratulate Chairwoman Diane 
Black for being named chairman of the Budget Committee and 
thank her for her leadership on this committee.
    As we face difficult economic times, I appreciate the 
dedicated efforts of the chairwoman, ranking members, and 
members of the committee.
    I am grateful to represent the Second Congressional 
District of South Carolina, a diverse and thriving district on 
the I-20 corridor that is home to a few of our Nation's most 
critical national security and environmental cleanup missions: 
Fort Jackson in the Midlands and the Department of Energy's 
Savannah River Site in the Aiken-Barnwell area. These unique 
missions contribute to our State and Nation in countless 
tangible ways. Each of these installations provides unique 
services to our country and requires our support.
    Fort Jackson is a critical part of our national security 
and military readiness. As the largest Initial Entry Training 
Center for the U.S. Army, Fort Jackson's primary mission is to 
train thousands of disciplined, motivated servicemembers, 
training 53 percent of the Army's basic training personnel and 
56 percent of the women entering the Army each year. At a time 
when our Nation faces critical threats around the world, from 
ISIL, from North Korea to Iran, the mission at Fort Jackson has 
never been more vital to achieving peace through strength.
    Additionally, Fort Jackson supports other critical 
missions, including the U.S. Army Soldier Support Institute, 
the Army Chaplain Center, the National Center for Credibility 
Assessment, and the Army's Drill Sergeant School. The impact of 
the base positively impacts the surrounding community as well 
as employing nearly 3,500 civilians and providing services for 
46,000 retirees and military family members.
    A little more than an hour down the I-20 corridor from Fort 
Jackson is the Department of Energy's Savannah River Site in 
the Aiken-Barnwell community. This site is a national asset, 
responsible for supporting our nuclear weapons, missions, and 
conducting cutting-edge research.
    The Savannah River Site is home to the Mixed Oxide Fuel 
Fabrication Facility, MOX, a critical component of our national 
security and environmental cleanup mission. Currently 70 
percent completed, when finished, the MOX facility will be able 
to take weapons-grade plutonium and reprocess it into green 
fuel, a more secure and sustainable option than potentially 
placing South Carolina and Georgia as a plutonium dumping 
ground. It is imperative that we continue funding this vital 
mission for our Nation's nuclear security mission.
    In addition to MOX, the Savannah River Site is home to many 
other vital Department of Energy nuclear security environmental 
cleanup missions. Last year, the site celebrated a milestone, 
completing construction of the Salt Waste Processing Facility, 
which, along with the Defense Waste Processing Facility, will 
greatly enhance the speed and efficiency of the remediation of 
high-level waste.
    Other critical facilities include H-Canyon, the Nation's 
only production-scale nuclear separations plant, and both K and 
L areas, which safely store nuclear materials.
    Additionally, the Savannah River Site conducts critical 
research through the Savannah River National Laboratory. The 
laboratory supports our Nation's ability to produce tritium, to 
monitor and detect capabilities for nuclear nonproliferation 
and nuclear forensics. It also enhances technologies for a 
nuclear cleanup mission at SRS and around the country.
    I urge you to continue your support to the unique missions 
at Fort Jackson and the Savannah River Site that keep American 
families safe.
    Finally, as chairman of the House Armed Services 
Subcommittee on Readiness, I urge the chairwoman and committee 
to support a level of funding that will adequately provide for 
the military and provide for our national defense. The first 
priority of the Federal Government is to provide for the common 
defense, and I echo the calls of House Armed Services Chairman 
Mac Thornberry and Senate Armed Services Committee Chairman 
John McCain in calling for the $640 billion to ensure that our 
servicemembers are trained, equipped, and resourced to complete 
their mission.
    Thank you, and I can't believe I ended this quickly. Are 
there any questions?
    [The prepared statement of Joe Wilson follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    Mr. Arrington. Thank you, Mr. Wilson.
    I ask the ranking member, Ms. DelBene, if she has any 
questions or comments.
    Thank you, Mr. Wilson.
    Mr. Wilson. I am grateful for your service, and I am 
honored to be here. Thank you very much.
    Mr. Arrington. Thank you for your time and remarks. Now I 
would now like to recognize our next panelist, Mr. Trent Franks 
from the great State of Arizona. Mr. Franks.

    STATEMENT OF THE HON. TRENT FRANKS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Franks. Well, first, may I thank you, Chairman 
Arrington and Ranking Member DelBene, for the opportunity to 
add my voice to those of many others concerned about the crisis 
facing our military.
    Mr. Chairman, our guardian class has consistently set 
before us the devastation that sequestration has wrought upon 
our military and the doubt that it has cast upon our ability to 
defeat existing and emerging threats, let alone deter them.
    For my part, I am here today to alert you to the dangerous 
state of our Nation's strategic capabilities and what the Obama 
years have done to our ability to deter and defeat the 
deadliest weapons known to humanity.
    Under President Obama, the Kim dynasty in North Korea 
evolved from an eccentric regional problem with nuclear weapons 
into an extremely dangerous nuclear threat to the United 
States. And we are now very close to seeing them master the 
physics required to range the entire continental United States 
with their missile technology.
    Barrack Obama's defense policies also placed Iran, the 
world's largest financier and enabler of terrorism, on track to 
gain a nuclear weapons capability. And unlike the Soviet 
threat, nuclear Jihad, Mr. Chairman, cannot be deterred by fear 
of retaliation. It is an existential threat to the peace and 
security of the entire human family.
    And while the Obama administration debated whether or not 
we should develop and maintain a missile defense capability 
against such threats, our near-peer adversaries, who never had 
such qualms, were working tirelessly to exploit weaknesses in 
our missile defense architecture.
    Mr. Chairman and members of the committee, effective 
missile defense is not only the last line of defense against a 
launched nuclear missile, it is our first line of defense 
against proliferation because it devalues such weapons as 
offensive military assets in the hands of our adversaries.
    However, the shameful reality is that, under President 
Obama, our near-peer adversaries developed their capabilities 
while ours atrophied. And while we drastically cut funding to 
the Missile Defense Agency, as is illustrated in the handouts 
that you have, China and Russia were rapidly developing and 
testing high-speed maneuvering weapons, including hypersonic 
glide vehicles recently, which are specifically designed to 
exploit the gaps and seams in our missile defense architecture 
existing at the moment and currently defeating the systems we 
have in place.
    These new weapons are capable of traveling more than a mile 
per second and fly at flat trajectory to prevent our missile 
defense systems from tracking them. The threat has outpaced us, 
and we must invest the appropriate resources to defend against 
the new threats or lose our ability to deter potential 
adversaries.
    Moreover, as our near-peers find ways to defeat our current 
defensive capabilities, our strategic nuclear deterrent has 
fallen into desperate need of modernization. We currently spend 
about $25 billion a year on our nuclear arsenal. Well, that is 
about 5 percent of the DOD budget, which itself is only about 
17 percent of our total budget. And what that means is, for 
less than one-tenth of 1 percent of our gross domestic product 
that is spent on nuclear deterrent, we have prevented World War 
III for 70 years.
    So, to be successful, Mr. Chairman, a deterrent must be 
effective, reliable, and credible. And I would just say, in 
order to revitalize our military, to maintain a nuclear 
deterrent which is effective, reliable and credible, and to 
build a missile defense architecture capable of meeting 
identified emerging threats, we require a defense budget top 
line of $640 billion. The $603 billion top line visits a modest 
3-percent increase over Mr. Obama's projected fiscal year 2018 
defense budget of $584 billion. And if we intend to solve our 
readiness crisis, a budget of this size, it will force us to 
underfund our key capabilities, such as nuclear arsenal and 
deterrent, defending national security space assets and 
ballistic missile defense, just to name a few. If we are to 
make America safe again, a 3-percent increase will not suffice.
    So, in conclusion, Mr. Chairman, may I just say to all of 
us here that the first purpose of any government or its leaders 
is to protect the lives and security of its people, and the 
failure of this responsibility renders all others meaningless.
    Ronald Reagan once said to us that you and I have a 
rendezvous with destiny. We can preserve this the last best 
hope of mankind on Earth for our children, or we can sentence 
them to take that very last step into 1,000 years of darkness. 
If we do fail, at least let our children and our children's 
children say of us that we justified our brief moment here. We 
did all that could be done. May history judge that this 
Congress was one that did all that could be done to protect the 
innocent in our own generation and to further ensure that 
American generations yet unborn will continue to walk in the 
sun light of freedom.
    Thank you, Mr. Chairman.
    [The prepared statement of Trent Franks follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Arrington. Thank you, Representative Franks, for your 
remarks.
    And I don't see any other panelists.
    I would ask my colleagues if they have any final remarks 
before we conclude our committee hearing.
    Okay.
    This completes the committee's business for today. I would 
like to thank all Members who shared their views before the 
Budget Committee. This committee stands adjourned.
    [The information follows:]
    The following statements were submitted for the Record.
    [The prepared statement of Mr. Kildee follows:]

            Rep. Kildee Testimony for House Budget Committee

    Good morning, Madame Chairwoman, Mr. Ranking Member, and members of 
the Committee. I appreciate the opportunity to testify here today on 
what I believe should be our nation's priorities in our budget.
    A budget is a statement of our nation's values. I believe we should 
be making investments in policies that grow our economy and create 
good-paying jobs, protect public health, and provide more opportunity 
and economic security for working families.
    Yet earlier this week, we saw the President push for huge increases 
to military spending by $54 billion in the next fiscal year. This is on 
top of the approximately $600 billion that we already spend on defense. 
And sadly, this additional military spending comes on the back of 
drastic cuts to domestic programs and agencies like the Environmental 
Protection Agency and the National Institutes of Health.
    According to the Center on Budget and Policy Priorities, our 
current non-defense discretionary spending for next year is already 
projected to hit the lowest point since 1962. The proposal by the White 
House would push that number even lower, below 3 percent of our gross 
domestic product.
    Spending less than 3 percent of GDP on our domestic programs that 
provide support for public education, job training, medical research, 
nutritional assistance and so much more, frankly is unacceptable.
    Congress already passed the harmful, across-the-board sequestration 
cuts that imposed deep cuts in our discretionary programs. But the 
President, in putting forth a budget proposal that requires additional 
deep cuts to discretionary spending, is being reckless.
    Medical research could be especially in jeopardy. While I am 
thankful that Congress passed the 21st Century Cures Act last year, 
medical research is vital for all of us as a nation to continue pushing 
scientific knowledge and technology. It is also incredibly personal to 
many Americans, including my family, who have medical conditions that 
could be potentially cured by research.
    Like an estimated 400,000 other Americans, my wife has multiple 
sclerosis, a neurological disease currently with no cure. Like millions 
of other Americans, my daughter, Katy, has Type 1 Diabetes. While we 
have research that allows for the management of the disease, we still 
do not have a cure.
    Imagine if we were to invest in medical research to find cures for 
diseases like MS, or diabetes, or cancer. Cutting domestic programs 
like the NIH and other medical research is reckless, wrong and would 
set us back as a country. Under President Trump, the NIH may face a cut 
of $4 billion dollars, more than 10 percent of its annual budget.
    With our nation's budget, there are other impacts to public health 
outside of medical research. The President has proposed severe cuts 
planned for the agency charged with protecting our air and water--the 
EPA. Cutting billions of dollars from the EPA is dangerous and would 
gut the agency focused on preventing the next Flint water crisis.
    Make no mistake, while the people of my hometown of Flint are 
strong and resilient, the community is still recovering from this 
crisis. It has been almost three years and people are still unable to 
drink water from their tap, an incredibly frustrating statistic in the 
richest country on earth. The impacts from what this community has 
suffered will be felt for a long time, with an entire generation 
exposed to high levels of lead. We can't leave these kids behind--or 
other communities that rely on the EPA to ensure clean air and water.
    We can--and should--make smart investments as a nation, including 
investments in infrastructure, education, public health and nutritional 
programs.
    The budget proposal issued by the President is not the responsible 
federal budget that my constituents expect and deserve.
    Thank you again for the chance to testify here today.

    [The prepared statement of Mr. Connolly follows:]

Concurrent Resolution on the Budget for Fiscal Year 2018, Committee on 
               the Budget, Rep. Gerald E. Connolly (D-VA)

    Chairman Black and Ranking Member Yarmuth, I previously served on 
the Budget Committee, and I want to thank you for the opportunity to 
return to the Committee to testify on Fiscal Year 2018 budget 
priorities.
    I come from local government where we passed bipartisan, balanced 
budgets each of the 14 years I served on the Fairfax County Board of 
Supervisors. While budgets are certainly values-based documents, they 
do not have to represent just one set of values. They can be inclusive, 
and should represent the diversity of the people they will ultimately 
affect. I regret to note that the Republican budget resolution that 
came before the House was neither balanced nor bipartisan. Despite 
leveling relentless criticism against President Obama for fiscal 
mismanagement while he was actually decreasing the deficit, the first 
budget of the new Republican unified government would increase the 
national debt by $9.5 trillion over the next ten years. Life comes at 
you fast, as does the reality of governing. It is my hope that in the 
spirit of pragmatic governing--the kind demanded at the local level of 
government--we can coalesce around a set of shared priorities that keep 
this country both safe and strong.
    I opposed the Republican budget resolution because it was not a 
serious document, it targeted American families and their healthcare, 
and it did not even feign the pretense of responsible budgeting or 
policymaking. Likewise, President Trump's forthcoming budget has been 
reported to have such mindless and draconian cuts that many Republicans 
have already declared it dead.
    That being said, I would like to use my time before the Committee, 
as I have in the past, to lay out a few priorities I believe should be 
included in the FY2018 budget.
    Our first shared priority should be ending the deep and 
indiscriminate cuts of sequestration for both defense and domestic 
spending. Don't just take my word for it. Listen to the representatives 
of the Veterans of Foreign Wars who have spent the week visiting 
Members' Capitol Hill offices to deliver the message that sequestration 
``is the most significant readiness and national security threat of the 
21st century.''
    I would note that the VFW--in outlining its number one priority--
does not differentiate between domestic and defense spending. Domestic 
and defense investments are complementary, and there are myriad 
examples of the relationship between the two creating a return on 
investment for the American taxpayer. A strong education system 
provides our military with its next generation of leaders. My district 
routinely sends more students to the U.S. military academies than any 
other Congressional district, in part, because Northern Virginia has a 
superb public education system. It was President Dwight D. Eisenhower, 
the former Supreme Commander of Allied Forces in Europe during WWII, 
whose vision of a National System of Interstate and Defense Highways 
gave us what we know today as the Interstate Highway System. The 
internet and GPS began as military research projects that now have 
nearly ubiquitous commercial applications. We must invest in both 
defense and domestic priorities and reject the Faustian bargain that 
would fund one and not the other to the ultimate detriment of both.
    The alternative we seek is one that appreciates the power of 
government investments to both spur growth and guard from costly triage 
spending when the bills come due for our neglected funding priorities.
    We can start by investing in the federal workforce that will carry 
out this mission. In recent years, no other group in our country has 
been demonized, demoralized, and asked to sacrifice more for the sake 
of deficit reduction than our federal workforce. All told, federal 
employees have contributed $182 billion to deficit reduction over the 
last six years. The reinstatement of the Armageddon Rule, the hiring 
freeze, and gag orders that inhibit whistleblowers constitute a 
downright hostile agenda towards federal workers. When my colleagues 
use federal employees as both a piggybank and a punching bag, they are 
undermining the very thing they purport to champion; efficient and 
effective government.
    That is why I have reintroduced the FAIR Act (H.R. 757), which 
would provide federal employees with a 3.2 percent wage adjustment, 
restore years of lost wage increases, and which represents the 
difference between last year's 5.3 percent request and the Obama 
Administration's 2.1 percent increase.
    We must remember that the hard working men and women of the federal 
workforce--85 percent of whom are based outside of Washington D.C.--are 
our friends and neighbors. They are providing essential government 
services in every community across America, whether it is on the front 
lines of national security, caring for our nation's seniors and 
veterans, or guiding families through our national parks.
    I would also ask that the Budget Committee be mindful of the 
obligation the federal government has to the providing funding for and 
ensuring the functionality of the Washington D.C. Metrorail system. 
This includes the federal government's annual $150 million commitment 
to the Washington Metropolitan Area Transit Authority (Metrorail). The 
federal government must pay its fair share. Since 40% of rush-hour 
riders are federal employees and the 16 million annual visitors to the 
nation's capital rely on Metrorail, the federal government has a unique 
responsibility to help fund the operation of this vital transportation 
system.
    There are in fact investments we can make now that will save money, 
and potentially lives, in the long run. I recently joined every 
Democratic Member of the House Foreign Affairs Committee in writing to 
the Budget Committee arguing on behalf of a robust International 
Affairs budget. And once again, you do not have to take my word for it. 
More than 120 retired generals and admirals recently wrote a letter to 
Congress on this matter. They wrote, ``the State Department, USAID, 
Millennium Challenge Corporation, Peace Corps and other development 
agencies are critical to preventing conflict and reducing the need to 
put our men and women in uniform in harm's way.'' We cannot starve our 
foreign aid and diplomacy missions and expect that increased defense 
spending alone will keep America safe.
    I want to thank the Chairman and Ranking Member for hosting 
Members' Day. Budgets can be values-based documents without being 
ideological manifestos, and I would hope that the burden of governing 
fosters a sense of pragmatism about the value of government investment.

    [The prepared statement of Mr. Calvert follows:]

 Committee on the Budget: Member's Day Hearing, Statement by Rep. Ken 
                                Calvert

    Chairman Black: As we have seen, the United States is facing an 
extraordinarily difficult fiscal situation driven by soaring government 
expenditures, continued weakness of the economy and years of unchecked 
government spending that has left us facing a national debt of almost 
$20 trillion. Republicans must do whatever we can to reduce unchecked 
and inappropriate spending and I believe we have an exciting 
opportunity ahead of us to submit a fiscally responsible federal budget 
to the American people.
    If we are to maintain the budget caps, then my primary concern is 
how to be a defense hawk and a deficit hawk. While I support ending the 
defense sequester, I also realize that we must operate according to 
current law. In a proactive attempt to address these difficult 
budgetary challenges, I introduced the Rebalance for an Effective 
Defense Uniformed and Civilian Employees (REDUCE) Act, H.R. 295. The 
current ratio of active duty military personnel vs. civilian personnel 
is out of balance. From 2001 to 2014, the active duty military has 
shrunk by four percent while the number of civilian defense employees 
grew by 15 percent. Under the Obama Administration, the Department of 
Defense followed through on plans to drastically cut active duty end 
strength--cuts that compromised readiness and assumed more risk. 
Meanwhile the Department of Defense civilian workforce remained 
virtually untouched. It is time for the Pentagon to make permanent 
reductions in a thoughtful manner that will result in a more efficient 
civilian workforce.
    H.R. 295 would reduce our defense civilian workforce by 15% by FY 
2028 through the flexibility of attrition as well as giving more weight 
to performance in a Reduction in Force. The legislation also mandates 
that the reductions occur over a five year period and gives the 
Secretary of Defense authority to incentivize early retirements. 
Ultimately, H.R. 295 would generate an estimated $125 billion in 
savings over five years that would be redirected back into the 
Department for modernization, readiness, and acquisition. To that end, 
I request that the Fiscal Year 2018 (FY18) Budget reflect these reforms 
and the need to rebalance the DOD civilian workforce.
    Furthermore, as Chairman of the Interior and Environment 
Appropriations Subcommittee, I have seen firsthand the result of the 
current and unsustainable state of emergency wildfire funding. In the 
face of disaster, agencies such as the United States Forest Service are 
forced to divert funding from critical accounts such as fire prevention 
and non fire accounts to pay for fire suppression.
    For this reason, I support the principles outlined in 
Representative Michael Simpson's legislation H.R. 167, the Wildfire 
Disaster Funding Act, of the 114th Congress. The version to be 
reintroduced in the 115th Congress is cost-neutral legislation that 
would fund wildfire suppression so catastrophic wildfires would be 
eligible for the disaster spending cap adjustment, just like 
hurricanes, floods, and similar natural disasters. As a former small 
business owner, I can attest that reliable budget numbers are essential 
in accurately and effectively planning for emergencies. The current 
state of wildfire funding and detrimental fire borrowing simply does 
not allow for this, leaving unhealthy forests that are more susceptible 
to expensive catastrophic wildfires. I support science-based funding 
for wildfires and the FY18 Budget should include a wildfire funding 
fix.
    Chairman Black, I am confident that the Republican majority in 
Congress can take these bolder approaches to achieve the ultimate goal 
of balancing our budget over time while finding ways to reform 
government spending in order to help America's global competitiveness 
and lay the foundation for economic growth.

    [The prepared statement of Mr. Simpson follows:]

          Testimony for Member Day Hearing, Rep. Mike Simpson

    Thank you for giving me the opportunity to talk with you today 
about an extremely important issue.
    Like many of my Western colleagues, I have seen the impacts of 
catastrophic wildfires first hand as they rage across my district each 
summer, threatening the lives and property of my constituents. I have 
seen where catastrophic fires have scorched the land so badly that 
nothing will grow. I have also seen where preventative measures--like 
hazardous fuels removal, timber harvesting, and grazing in areas 
susceptible to fire--have protected resources, property, and lives from 
fires that would have been much worse without them. Effective forest 
management can prevent a routine fire that is manageable and easy to 
control from becoming a catastrophic one that costs millions to contain 
and years to recover from.
    Hazardous fuels, like dry undergrowth and foliage that is extremely 
susceptible to fire, can cause fires to burn hotter, spread more 
quickly, and climb up to the top of the trees, making it much more 
difficult to control. Removing these fuels is a key tool for preventing 
catastrophic wildfires. I have seen areas where a fire destroyed 
everything in its path only to stop short at an area where brush and 
undergrowth had been removed.
    Containing catastrophic fires costs us millions, even billions of 
dollars each year. Typically, only 1-2% of the fires we fight each year 
are considered catastrophic. Yet we spend a disproportionate amount of 
money trying to get them under control. For example, last year just 10 
fires cost more than $300 million. So it makes good budget sense to 
spend some money preventing catastrophic wildfires before they escalate 
rather than spending millions to fight them once they are out of 
control.
    Unfortunately, the way we currently budget for wildfire doesn't 
make sense. Today most of the funding we provide for hazardous fuels 
removal never makes it to the ground. When wildfire suppression costs 
exceed the agencies' fire budget, the agencies are forced to borrow 
from other accounts, like hazardous fuels reduction, to pay for fire 
suppression. There is no guarantee that Congress will make those 
accounts whole by the end of the fiscal year. Even if we do, that 
funding comes to the agencies far too late for it to do any good.
    Robbing non-fire accounts to pay for fire suppression means that 
the Forest Service has fewer resources available for forest management, 
so fires get worse and suppression costs end up devouring the agency's 
budget. The way we currently budget for fire has created a devastating 
cycle of fire borrowing that is costing taxpayers and destroying our 
forests.
    Fire borrowing was intended to be an extraordinary measure, but 
agencies routinely have had to rob other budgets to pay for fire 
suppression.
    Recent fire seasons have cost taxpayers upwards of one billion 
dollars. Those costs will only go up unless we take action to end this 
destructive cycle of fire borrowing. That is why Representative 
Schrader and I plan to reintroduce the Wildfire Disaster Funding Act. 
This legislation enjoyed broad bipartisan support in the 113th and 
114th Congress. It was cosponsored by 150 Members of Congress and 
supported by a broad coalition of over 300 organizations, ranging from 
the Wilderness Society to the NRA.
    This bill recognizes that catastrophic wildfires are major natural 
disasters, like hurricanes and floods, and would budget for them 
accordingly. Routine wildland firefighting costs would continue to be 
funded through the normal appropriations process, while catastrophic 
fires would be eligible for disaster funding when the fiscal year 
suppression accounts are exhausted. This approach would allow the 
Forest Service and DOI to avoid borrowing money from prevention 
accounts which only exacerbates the wildfire problem for future years.
    It's important to note that we are already spending this money--we 
already fully fund wildfire suppression each year. But fire borrowing 
is such an inefficient practice that we are only spending more money 
each year to fight bigger fires. We are doing nothing to manage forests 
in such a way to prevent fires that rage out of control and cost 
millions to contain.
    There are a number of steps that we need to take to address forest 
health and management issues, but fixing the wildfire suppression 
budget must be the first one. Until we address this issue, anything we 
do to increase management activities in our forests, like hazardous 
fuels removal, timber harvest, conservation, or trail maintenance, will 
continue to get lost in fire transfers. Fixing the wildfire budget is 
the critical first step in making our forests healthier and, 
ultimately, reducing the cost of wildfires in the future.
    We must do something to end fire borrowing. It is destroying our 
forests, it is costing taxpayers billions of dollars, and, quite 
frankly, as funding intended for one purpose is siphoned off for 
another, it is taking away Congress's ability to determine how 
appropriated dollars are spent. I look forward to working with you to 
find the best way to address this issue, and I appreciate you giving me 
the opportunity to testify today.

    [The prepared statement of Mr. Turner follows:]

        Congressman Michael R. Turner (OH-10), Written Statement

    Chairman Black, Ranking Member Yarmuth, and distinguished members 
of the House Committee on Budget, thank you for allowing me to offer my 
statements today.
    The Administration has indicated plans to submit a budget request 
of $603 billion for national defense base requirements. While I commend 
President Trump's initial efforts to rebuild our military, this 
proposal will not address the critical needs of our military and as a 
consequence will not allow the successful execution of its strategic 
objectives. The proposed $603 billion only represents a mere 3.2 
percent increase compared to the Fiscal Year 2018 funding levels 
projected in President Obama's last budget request.
    The Budget Control Act (BCA) placed a tremendous burden on our 
national defense and military capabilities.The BCA's devastating budget 
cuts have allowed our military's capabilities to atrophy, our force 
size to shrink, and as a result we are assuming too much risk in our 
military preparedness to fight and win against near-peer and peer 
competitors. In its review of the 2014 Quadrennial Defense Review 
(QDR), the bipartisan National Defense Panel strongly advocated for a 
funding baseline consistent with then-Secretary of Defense Robert 
Gates' budget request for FY2012. In FY2018 Secretary Gates' projected 
a topline amount of $661 billion for national defense. President 
Trump's request would be $58 billion short of that number.
    With the onset of sequestration, 2011 is the last time the 
Department was able to engage in an honest and strategic assessment of 
global threats and the necessary capabilities to effectively deter 
those threats.
    The Armed Services Committee, under the leadership of Chairman 
Thomberry, was tasked with identifying critical capability gaps as well 
as the resources needed to to fund national defense and begin 
addressing these critical shortfalls. The committee assessed that $640 
billion was the bare minimum necessary to even begin the process of 
rebuilding our military and reversing the damaging cuts that have led 
to serious readiness challenges throughout the military services.
    The Department of Defense defines readiness as ``the ability of 
military forces to fight and meet the demands of assigned missions.'' 
The Armed Services Committee has heard numerous testimonies from senior 
military leadership on readiness shortfalls and how they are assuming 
too much risk in training and operations.. Recently, General Daniel 
Allyn, Vice Chief of Staff of the Army, stated ``our Army requires 
modernized equipment to win decisively, but today we are outranged, 
outgunned and outdated''. His statements, disconcertingly similar to 
other service Chiefs and Vice Chiefs, point out that we are ``assuming 
risk and mortgaging our future readiness.'' General Joseph Dunford, 
Chairman of the Joint Chiefs of Staff, when speaking on critical 
munition shortfalls stated that ``our current global inventories are 
insufficient for theater missile defense, standoff, and air-to-air 
munitions needs''.
    The U.S. currently faces one of the most complex security 
environments in recent history and our military is continually being 
asked to do more with less. The restoration of our national defense 
must be our top priority. Continuing down the path of budget driven 
defense strategies rather than capability driven defense strategies 
places too great a burden on our men and women in uniform and severely 
impacts our ability to defend our interests at home and abroad. 
Reversing this damaging trend in national security and military 
readiness will not be accomplished in one year, but as you form your 
budget submission I urge you to support a national defense base of $640 
billion which is what's required to begin the process of rebuilding our 
military.

    [Whereupon, at 12:03 p.m., the committee was adjourned.]
</pre></body></html>
